         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report
The 12 GeV CEBAF Upgrade
Project at Thomas Jefferson
National Accelerator Facility




OAS-RA-L-11-13                    September 2011
                                 Department of Energy
                                    Washington, DC 20585
                                      September 30, 2011


MEMORANDUM FOR THE DEPUTY DIRECTOR FOR SCIENCE PROGRAMS, OFFICE
                  OF SCIENCE
               DIRECTOR, OFFICE OF RISK MANAGEMENT AND FINANCIAL
                  POLICY, OFFICE OF THE CHIEF FINANCIAL OFFICER



FROM:                    David Sedillo, Director
                         NNSA & Science Audits Division
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The 12 GeV CEBAF Upgrade
                         Project at Thomas Jefferson National Accelerator Facility"
                         Audit Report Number: OAS-RA-L-11-13

BACKGROUND

In September 2008, the Department of Energy's (Department) Office of Science approved a
construction project to double the electron beam energy of the Continuous Electron Beam
Accelerator Facility (CEBAF) at the Thomas Jefferson National Accelerator Facility (Jefferson
Laboratory) from 6 to 12 billion electron volts (GeV). The 12 GeV Upgrade Project (Upgrade
Project) includes the construction of a new experiment hall, as well as upgrades to the beamline
and the three existing experiment halls. Upgrades will also be made to the CEBAF accelerator.
Construction is scheduled to be completed in June 2015. Under a prime contract with the
Department, Jefferson Science Associates (JSA) is responsible for managing the project as well
as the management and operation of the Jefferson Laboratory. The Office of Science's Thomas
Jefferson Site Office (Site Office) represents the Department in conducting business at Jefferson
Laboratory with support from the Department's Oak Ridge Office.

The total project cost (TPC) for the Upgrade Project is $310 million which includes $65 million
in American Recovery and Reinvestment Act of 2009 (Recovery Act) funding. According to the
Recovery Act Project Operating Plan, the Recovery Act funding was intended to reduce cost and
scheduling risks, immediately create jobs, and reduce out-year funding requirements. The
Commonwealth of Virginia (Virginia) also provided $9.0 million to JSA as part of its higher
education program to leverage the Department's investment in the Upgrade Project.

Due to the significant level of Recovery Act funding, we initiated this audit to determine whether
the Office of Science was adequately managing the Upgrade Project and effectively deploying
the associated Recovery Act funding.

CONCLUSIONS AND OBSERVATIONS

We found that the Upgrade Project generally complied with the Recovery Act requirements we
tested and was, for the most part, on schedule. However, we identified several opportunities to
strengthen project monitoring and control. Specifically, we found that:
   •   JSA used funds from Virginia to pay for Upgrade Project tasks even though the funds had
       not been formally obligated to its contract. We noted that the Department's Accounting
       Handbook did not include specific procedures for handling funds, such as those provided
       by Virginia, which may have contributed to the breakdown in the process. In addition,
       we noted that the Site Office did not consult with the Oak Ridge Office before allowing
       JSA to use the funding on the project. Such consultation may have resulted in the
       placement of the funds on the Jefferson Laboratory contract before they were used to pay
       for project tasks.

   •   Jefferson Laboratory did not include all of the costs for the Upgrade Project in the TPC.
       In particular, project tasks funded with the Virginia monies were removed from the
       calculation of TPC and accounted for separately. We noted that the Office of Science did
       not enforce Department Order 413.3B, Program and Project Management for the
       Acquisition of Capital Assets, which states that the project baseline is to capture the TPC.
       While JSA tracked and monitored the use of funds provided by Virginia in separate
       accounts, we noted that the Department plans to evaluate the contractor's cost
       performance and determine the contractor fee based on the project's TPC which, as
       previously stated, does not include all project costs.

   •   Jefferson Laboratory was not timely in addressing the Office of Science's Office of
       Projects Assessment (OPA) concerns regarding risks posed by a solenoid magnet to be
       used in the GlueX spectrometer, which is the centerpiece of the Upgrade Project. In
       particular, OPA raised concerns in 2009 and 2010 that the solenoid magnet represented a
       substantial risk to the project even after refurbishment. This risk led to the decision in
       late 2010 to purchase a replacement. The replacement, according to OPA, will take about
       five years to design, build, and install, which will be after construction is completed. In
       its June 2011 review, OPA noted that Jefferson Laboratory had made progress but
       expressed concerns regarding the lack of expediency of the Upgrade Project in procuring
       the replacement solenoid. The OPA reviewers suggested that further commitment was
       required to ensure completion of the procurement work in a timely manner.

Subsequent to our inquiries on the issue, the Site Office in consultation with the Oak Ridge
Office placed the Virginia funding on JSA's contract using a Work for Others (WFO) agreement.
According to the Oak Ridge Office and the Site Office, this method was considered appropriate
and easier to accomplish than a gift. While using a WFO may have been an easier method to
place the Virginia funds on the contract, the Department's WFO directives were not clear on how
this particular type of transaction constituted being a WFO because the agreement was for
Upgrade Project tasks that were already included in the Department's planned funding profile.

SUGGESTED ACTIONS

To address the concerns noted in this report, we suggest that the Deputy Director for Science
Programs, Office of Science, in coordination with the Thomas Jefferson Site Office, ensure that:

       1. Upgrade Project tasks paid with funds received from Virginia and other sources are
          included in the calculation of TPC; and,

       2. JSA fully addresses the OPA's concerns in a timely manner.

                                                2
Additionally, we suggest that the Director, Office of Risk Management and Financial Policy,
Office of the Chief Financial Officer clarify policies and procedures for handling funds received
from non-Department sources, such as those received from Virginia.

Management reviewed a draft of this report and expressed their appreciation for constructive
suggestions as the Office of Science moves forward with the Upgrade Project.

cc: Deputy Secretary
    Associate Deputy Secretary
    Under Secretary for Science
    Director, Office of Science
    Chief Financial Officer
    Chief of Staff




                                                3
                                                                                     Attachment


                      OBJECTIVE, SCOPE AND METHODOLOGY


OBJECTIVE

The objective of this audit was to determine whether the Office of Science (Science) was
adequately managing the 12 billion electron volts Upgrade Project (Upgrade Project) and
efficiently deploying the associated American Recovery and Reinvestment Act of 2009
(Recovery Act) funding.

SCOPE

The audit was performed between September 2010 and September 2011, at the Thomas Jefferson
National Accelerator Facility (Jefferson Laboratory) in Newport News, Virginia.

OBJECTIVE

To accomplish the audit objective, we:

    • Assessed compliance with applicable laws and regulations, as well as Department of
      Energy (Department) policies and procedures related to project management;

    • Interviewed Departmental personnel from Science, the Oak Ridge Office, and the
      Thomas Jefferson Site Office, as well as the Office of General Counsel and Office of the
      Chief Financial Officer;

    • Held discussions with key contractor personnel, such as management on the Upgrade
      Project as well as accounting and procurement personnel from Jefferson Laboratory;

    • Evaluated project documentation, such as monthly project management reports and
      project execution plans;

    • Judgmentally selected Recovery Act transactions and subcontracts awarded for the
      Upgrade Project and reviewed them for compliance with Recovery Act requirements;
      and,

    •   Reviewed the accuracy of data Jefferson Laboratory reported to FederalReporting.Gov.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
conclusions based on our audit objective. The audit included tests of controls and compliance
with laws and regulations necessary to satisfy the audit objective. Because our review was
limited, it would not necessarily have disclosed all internal control deficiencies that may have
existed at the time of our audit. During the audit, we assessed the Department's compliance with
                                                                        Attachment (continued)


the Government Performance and Results Act of 1993 and found that no specific performance
measures on the Upgrade Project had been established. There was, however, a performance
measure on providing for the efficient and effective construction of facilities, which would
capture the Upgrade Project among other projects at Jefferson Laboratory. We utilized
computer-processed data to identify the populations of costs paid with Recovery Act funding in
order to accomplish our audit objective. Based on our comparisons of computer-processed data
to supporting documentation, we determined that the data were sufficiently reliable for the
purposes of our report.

Management waived an exit conference.
                                                                IG Report No. OAS-RA-L-11-13


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
